No. ____________
In the
Supreme Court of the United States
SALVADOR VASQUEZ, Petitioner
v.
UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
Motion for Leave to Proceed in Forma Pauperis

Petitioner, by his undersigned counsel, asks leave to file the attached
petition for writ of certiorari to the United States Court of Appeals for the
Ninth Circuit without prepayment of costs and to proceed in forma pauperis.
Petitioner was represented by counsel appointed in the trial court under the
Criminal Justice Act, 18 U.S.C. ยง 3006A(b).

*

*

*

This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: September 27, 2021

By: /s/ Margaret A. Farrand
MARGARET A. FARRAND*
Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record

